No. 19-309
IN THE

Supreme Court of the United States
GOVERNOR OF DELAWARE,
v.
JAMES R. ADAMS,

Petitioner,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Richard W. Clary,
a member of the Bar of this Court, certify that the Brief of the Brennan
Center for Justice at NYU School of Law as Amicus Curiae Supporting
Petitioner contains 7,978 words, excluding the parts of the brief that are
exempted by Supreme Court Rule 33.1(d).
Dated: January 28, 2020.
/s/ Richard W. Clary
Richard W. Clary
CRAVATH, SWAINE & MOORE LLP
825 Eighth Avenue
New York, NY 10019
(212) 474-1000
Counsel of Record for Amicus Curiae
Brennan Center for Justice at NYU
School of Law

